                Establishing Case Priorities and Enhancing
               the Processes Would Improve the Employee
                Plans Efforts to Resolve Reported Funding
                        Deficiencies on Form 5500

                                 September 2004

                       Reference Number: 2004-10-192




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  September 30, 2004


      MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                     ENTITIES DIVISION


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Establishing Case Priorities and Enhancing
                                    the Processes Would Improve the Employee Plans Efforts to
                                    Resolve Reported Funding Deficiencies on Form 5500
                                    (Audit # 200410010)


      This report presents the results of our review of funding deficiencies reported on the
      Annual Return/Report of Employee Benefit Plan (Form 5500). The overall objective of
      this review was to determine whether the Tax Exempt and Government Entities (TE/GE)
      Division processes ensured the funding deficiencies reported by defined benefit and
      defined contribution pension plans were appropriately resolved. The Employee
      Retirement Income Security Act (ERISA) of 19741 establishes the minimum annual
      funding amounts that employers must contribute to pension plans in an effort to ensure
      pension plans have enough money to pay benefits when due. If the ERISA minimum
      funding requirements are not met, the underfunding is reported on the Form 5500
      return.
      Pension underfunding has recently become a greater concern. For example, in 2002,
      320 companies in the Standard & Poor’s (S&P) 500 Index had defined benefit pension
      asset losses of $106 billion.2 However, pension asset levels are only one factor used in
      determining whether pension plans are meeting the ERISA minimum funding
      requirements; therefore, plan sponsors are generally not required to offset all pension


      1
        Pub. L. No. 93-406, 88 Stat. 829 (codified as amended in scattered sections of 5 U.S.C., 18 U.S.C., 26 U.S.C.,
      29 U.S.C., and 42 U.S.C.).
      2
        2003 Corporate Funding Survey on Pensions (FASB 87), issued May 14, 2003, by Wilshire Associates
      Incorporated. This study covered defined benefit plans sponsored by S&P 500 companies, based on a survey of
      320 companies in the S&P 500 Index that maintain defined benefit plans.
                                                         2

asset losses with corresponding contributions to the plans. In 2002, plan sponsors
responded by making contributions to their pension plans totaling $41 billion.
Under the ERISA, the Department of Labor and the Department of the Treasury jointly
have the authority to issue regulations and ensure the ERISA is enforced. The Pension
Benefit Guaranty Corporation monitors the adequacy of pension plan funding to
determine if a plan may need to be terminated immediately. The TE/GE Division
Employee Plans (EP) function is tasked with enforcing the Department of the Treasury’s
ERISA requirements, which include monitoring compliance with minimum funding
requirements and assessing an excise tax on funding deficiencies.
The EP function monitors minimum funding requirements by using a Funding Deficiency
Table, which is an inventory of all Form 5500 returns that report a funding deficiency
over a certain dollar amount. Classifiers in the EP function perform research on the
returns and attempt to contact plan sponsors to request an explanation and/or
resolution of the funding deficiency. Funding deficiencies that remain after the EP
classification research has been completed can be assigned to the EP Examination
function to determine whether an excise tax should be assessed.
In summary, the EP function is not sufficiently ensuring Form 5500 returns with reported
funding deficiencies are adequately resolved. Specifically, in October 2003, EP function
management decided to close a significant number of older cases without working them
because of other priorities. Several factors were considered in deciding to close these
cases, but the primary reason was that, historically, a high percentage of returns on the
Funding Deficiency Table are actually in compliance with minimum funding
requirements; therefore, an examination would not be necessary. We also determined
that EP function classifiers did not always take sufficient actions to resolve funding
deficiencies or entered inaccurate and/or incomplete closing actions on the Funding
Deficiency Table, so neither we nor EP function management could determine whether
appropriate actions had been taken to resolve the funding deficiencies.
Regarding the closure of cases, the Funding Deficiency Table included
3,798 Form 5500 returns that were posted to the Internal Revenue Service (IRS)
Master File3 in either Fiscal Year (FY)4 2002 or 2003. Of the 3,798 returns,
842 (22 percent) were closed without being worked by the EP function. These plans
reported underfunding of approximately $672 million on the Forms 5500.
We also determined cases were not always worked in accordance with EP function
procedures. One reason is that the Funding Deficiency Table was not designed as an
inventory management and control system and has limitations for monitoring case
assignments. We analyzed documentation for 1,650 Form 5500 returns that posted to
the IRS Master File in FY 2002 and determined EP function classifiers had performed
research to assess whether the plan sponsors resolved the potential deficiencies for

3
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
4
  The IRS uses a processing fiscal year that starts with October 1 of the previous year and ends on September 30 of
the current year. For example, FY 2002 started October 1, 2001, and ended September 30, 2002.
                                              3

1,082 of these returns. However, for 225 of the 1,082 returns, insufficient follow-up
actions were taken or cases were closed without a determination as to whether the
funding deficiency existed and/or had been resolved.
In addition, our analysis of case actions for the 1,047 returns on the Funding Deficiency
Table that were worked by EP function classifiers and posted to the Master File in
FY 2002 found inaccurate and/or incomplete information. For example, 85 returns had
incorrect closing codes recorded on the Funding Deficiency Table, and 82 returns had
actions recorded in the comment section that were either unclear or did not fully
address all the actions that should have been taken. Also, 440 returns did not have any
information recorded in the comment section, which does not provide EP function
management the necessary information to verify the correct closing codes were used.
We recommended the Director, EP, establish a process for prioritizing returns on the
Funding Deficiency Table based on risk factors that will ensure returns with the greatest
risk of insufficient funding for future retirement benefits are worked first. In addition, we
recommended the Director, EP Examination function, perform the following:
reemphasize the procedures for working returns with reported funding deficiencies;
expand the classification funding procedures to include all the actions necessary to
resolve potential funding deficiencies; improve the Funding Deficiency Table by creating
closing codes to accommodate all closing actions; and establish a periodic managerial
review process of the Funding Deficiency Table to ensure funding deficiency cases
were adequately resolved and accurately recorded.
Management’s Response: TE/GE Division Management agreed with the findings and
recommendations in the report. Specifically, TE/GE Division management will establish
criteria for prioritizing returns on the Funding Deficiency Table based on risk factors;
reemphasize procedures for working returns with reported funding deficiencies; update
the funding procedures manual to include action codes, no action code or letter result
code for bankruptcies and unable to locate taxpayers; and implement a monitoring
process of the funding deficiency program. TE/GE Division management stated they
have also revised the funding procedures manual to expand the closing codes to better
indicate the closing action recorded on the Funding Deficiency Table. In addition, the
EP Classification function will periodically review the Funding Deficiency Table
comment section for all cases closed due to taxpayer error and will work with a
representative from the EP Customer Education and Outreach function once error
trends are identified. Management's complete response to the draft report is included
as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
  Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
          Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500




                                                 Table of Contents


Background ............................................................................................... Page 1
Establishing Priorities for Working Funding Deficiency Cases Would
Ensure Returns With the Greatest Risk of Funding Problems
Are Worked ............................................................................................... Page 5
         Recommendation 1: .......................................................................Page 8

Enhanced Processes Are Necessary to Ensure Funding Deficiencies
Are Sufficiently Researched and Accurately and
Completely Documented ........................................................................... Page 9
         Recommendations 2 through 4:.....................................................Page 14
         Recommendations 5 and 6: ...........................................................Page 15

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 16
Appendix II – Major Contributors to This Report ....................................... Page 17
Appendix III – Report Distribution List ....................................................... Page 18
Appendix IV – Outcome Measures............................................................ Page 19
Appendix V – Management’s Response to the Draft Report ..................... Page 20
 Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
          Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                                Pension plans provide millions of Americans the
Background
                                opportunity to acquire income for retirement. The
                                Employee Retirement Income Security Act (ERISA) of
                                19741 establishes the basic requirements for employee
                                benefit plans. The sponsors2 of pension plans and other
                                fiduciaries have a responsibility to protect the interests of
                                the workers and retirees who are covered by the benefit
                                plans. The plan trustee or trustees are responsible for
                                managing the assets in the pension plan to provide for future
                                retirements. Generally speaking, there are two types of
                                plans:
                                •   Defined Benefit Pension Plans – benefits paid to
                                    participants at retirement are determined in advance by
                                    preestablished formulas. These types of plans are
                                    usually funded by employer contributions and have
                                    remained particularly popular in specific industries.
                                •   Defined Contribution Retirement Plans – contributions
                                    to participants’ retirement plan accounts are determined
                                    in advance. An example of this type of plan would be a
                                    tax deferred savings account in which a plan participant
                                    allocates a portion of his or her salaries or wages to
                                    investments within the plan. In some instances,
                                    employers may match all or a portion of the
                                    contribution.
                                Pension plans invest assets in different vehicles, such as the
                                stock market or mutual funds, whose value may fluctuate
                                depending on the volatility of the financial and economic
                                markets. The ERISA Section 302 or Internal Revenue Code
                                (I.R.C.) Section 412 establish the minimum annual funding
                                amounts employers must contribute to plans in an effort to
                                ensure plans have enough money to pay benefits when due.
                                The ERISA allows for plans to be underfunded except when


                                1
                                  Pub. L. No. 93-406, 88 Stat. 829 (codified as amended in scattered
                                sections of 5 U.S.C., 18 U.S.C., 26 U.S.C., 29 U.S.C., and 42 U.S.C.).
                                2
                                  A plan sponsor for a single employer plan is an employer that
                                establishes or maintains a pension plan for its employees. A plan
                                sponsor for a multiemployer plan is the board of trustees that oversees a
                                multiemployer pension plan. A multiemployer plan is a pension plan set
                                up by collectively bargained agreements involving more than one
                                unrelated employer, generally in one common industry (e.g., a plan set
                                up between a union and two or more employers).
                                                                                                 Page 1
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                               the level of the fund drops below the minimum annual
                               funding level. Pension underfunding has recently become a
                               greater concern. An example of the impact of fluctuating
                               markets on the value of the pension plans occurred in 2002
                               when 320 companies in the Standard and Poor’s (S&P) 500
                               Index had defined benefit pension asset losses of
                               $106 billion.3 The Wilshire Associates study also reported
                               that, for these 320 companies, the pension surplus (the
                               difference between the market value of assets and liabilities)
                               of $34 billion at the end of 2001 dropped to a deficit of
                               $177 billion by the end of 2002. However, pension asset
                               levels are only one factor used in determining whether
                               pension plans are meeting the ERISA minimum funding
                               requirements and, therefore, plan sponsors are generally not
                               required to offset all pension asset losses with
                               corresponding contributions to the plans. In 2002, plan
                               sponsors responded by making contributions to their
                               pension plans totaling $41 billion.
                               Minimum funding requirements outlined in the I.R.C. and
                               the ERISA are designed to ensure pension plans have
                               sufficient assets to pay benefits when those benefits become
                               due. However, these requirements may not be sufficient for
                               pension plans that may need to be terminated because of
                               sustained significant market drops. The Pension Benefit
                               Guaranty Corporation (PBGC)4 monitors the adequacy of
                               pension plan funding to determine if a plan may need to be
                               terminated immediately. The Executive Director for the
                               PBGC testified before the House Committee on Ways and
                               Means on April 30, 2003, stating that, “With pension




                               3
                                 2003 Corporate Funding Survey on Pensions (FASB 87), issued
                               May 14, 2003, by Wilshire Associates Incorporated. This study covered
                               defined benefit plans sponsored by S&P 500 companies, based on a
                               survey of 320 companies in the S&P 500 Index that maintain defined
                               benefit plans.
                               4
                                 The PBGC insures pension benefits for the defined benefit plans that
                               pay insurance premiums to the PBGC. The PBGC has the authority to
                               terminate a plan if it determines the pension plan cannot pay current
                               benefits. If an insured defined benefit plan fails or is terminated, the
                               PBGC takes over the pension plan and is responsible for paying current
                               and future benefits to participants. However, this may result in benefit
                               reductions for some participants.
                                                                                               Page 2
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                               promises5 growing and plan funding levels at their lowest
                               point in more than a decade, the dollar amount of pension
                               under funding has skyrocketed.” The Executive Director
                               further testified that the failure of several large companies
                               with highly underfunded plans has caused the PBGC’s
                               insurance program for single employer plans to drop from a
                               surplus of $7.7 billion at the end of Fiscal Year (FY) 2001
                               to a deficit of $3.6 billion by the end of FY 2002. The
                               PBGC states there was $300 billion in pension underfunding
                               for FY 2002, although these underfunded pension plans may
                               have met the minimum funding requirements under the
                               ERISA.
                               If the ERISA minimum funding requirements are not met,
                               the underfunding is reported on the Annual Return/Report
                               of Employee Benefit Plan (Form 5500). In addition, the
                               I.R.C.6 has established the following requirements and
                               penalties for plan sponsors who report a funding deficiency
                               on the Form 5500 and do not meet their minimum funding
                               requirements:
                               •   Excise tax can be assessed if the funding requirement is
                                   not paid within 8½ months after the end of the plan year.
                                   For multi-employer plans, a 5 percent excise tax may be
                                   assessed and for single employer plans, a 10 percent
                                   excise tax may be assessed.
                               •   An additional 100 percent excise tax can be assessed if
                                   plan sponsors do not correct the funding deficiency
                                   within the tax period in which the excise tax was
                                   assessed.
                               Under the ERISA, the Department of Labor (DOL) and the
                               Department of the Treasury jointly have the authority to
                               issue regulations and ensure the ERISA is enforced. The
                               Presidential Reorganization Plan No. 4 of 1978 reduces the
                               jurisdictional overlap of the ERISA by assigning the
                               statutory authority for the minimum standards to the


                               5
                                 These are agreements made between management and workers to
                               increase pensions, sometimes in lieu of larger wage increases. The
                               PBGC testified about a concern with financially troubled companies
                               making pension promises that companies later find they are unable to
                               keep.
                               6
                                 I.R.C. § 4971 (2003).
                                                                                              Page 3
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                               Department of the Treasury, which includes the employee
                               plans funding requirements. The IRS Tax Exempt and
                               Government Entities Division Employee Plans (EP)
                               function is the organization tasked with enforcing the
                               Department of the Treasury’s ERISA requirements, which
                               include monitoring compliance with minimum funding
                               requirements and assessing an excise tax on funding
                               deficiencies. The IRS considers a pension plan to have a
                               funding deficiency if the level of the fund does not meet the
                               ERISA minimum funding requirement when the Form 5500
                               is filed.
                               The EP function established the following process to
                               monitor minimum funding requirements prescribed by the
                               ERISA. A Funding Deficiency Table was created to
                               maintain an inventory of all Form 5500 returns that report a
                               funding deficiency over a certain dollar amount. The
                               Form 5500 return information on the Return Inventory
                               Classification System (RICS)7 is used to update the Funding
                               Deficiency Table.
                               Classifiers in the EP function attempt to resolve the funding
                               deficiencies by performing research on the inventory of
                               returns and by attempting to contact plan sponsors to
                               request an explanation and/or resolution of the funding
                               deficiency. These resolutions can include:
                               •   A return for which the plan sponsor paid the funding
                                   deficiency after the return due date but before the
                                   8½ month deadline in the I.R.C. This type of payment
                                   is considered to be timely and is classified as a timing
                                   difference.
                               •   A return on which the plan sponsor made an error in the
                                   preparation of the Form 5500, but the correct amount
                                   would not reflect a funding deficiency.
                               •   An excise tax return filed reporting the correct amount
                                   of excise tax and the funding deficiency was
                                   subsequently paid after the due date.




                               7
                                The RICS is the inventory system used by the EP function to control,
                               select, and monitor the results of examinations.
                                                                                              Page 4
 Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
          Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                                In addition, if this contact does not sufficiently resolve the
                                funding deficiency, the EP function classifier can assign the
                                return to the appropriate EP Examination function field
                                group. If a plan sponsor does not agree to pay excise taxes
                                and minimum funding amounts, the EP function refers the
                                unagreed case to the DOL.
                                The audit was conducted in accordance with Government
                                Auditing Standards at the EP Planning and Programs office
                                located in Baltimore, Maryland, during the period January
                                through June 2004. Detailed information on our audit
                                objective, scope, and methodology is presented in
                                Appendix I. Major contributors to the report are listed in
                                Appendix II.
                                The EP function is not sufficiently ensuring Form 5500
Establishing Priorities for
                                returns with reported funding deficiencies are adequately
Working Funding Deficiency
                                resolved. Specifically, in October 2003, EP function
Cases Would Ensure Returns
                                management decided to close a significant number of older
With the Greatest Risk of
                                cases without working them because of other priorities. We
Funding Problems Are Worked
                                also determined that EP function classifiers did not always
                                take sufficient actions to resolve funding deficiencies or
                                entered inaccurate and/or incomplete closing actions on the
                                Funding Deficiency Table.8 As a result, EP function
                                management cannot be assured that plan sponsors are in
                                compliance with the minimum funding requirements
                                outlined in the ERISA.
                                The Funding Deficiency Table included 3,798 Form 5500
                                returns with reported funding deficiencies of over $2 billion
                                for Forms 5500 that were posted to the IRS Master File9 in
                                either FY10 2002 or 2003. Of the 3,798 returns,
                                842 (22 percent) were closed without being worked by the
                                EP function. These plans reported underfunding of
                                approximately $672 million on the Forms 5500. In
                                addition, we identified 66 returns that posted to the Master


                                8
                                  This issue is presented in more detail later in the report.
                                9
                                  The IRS database that stores various types of taxpayer account
                                information. This database includes individual, business, and employee
                                plans and exempt organizations data.
                                10
                                   The IRS uses a processing fiscal year that starts with October 1 of the
                                previous year and ends on September 30 of the current year. For
                                example, FY 2002 started October 1, 2001, and ended
                                September 30, 2002.
                                                                                                  Page 5
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                               File in FY 2002 that were still open on the Funding
                               Deficiency Table as of January 2004; however, no work had
                               been done to resolve the funding deficiency and there was
                               less than a year before the assessment statute expired.
                               These reported funding deficiencies totaled over
                               $14 million. EP function management advised us they were
                               also considering closing these 66 returns without working
                               them.
                               Several factors were considered by EP function
                               management in deciding to close these cases:
                               •   Historically, a high percentage of Form 5500 returns on
                                   the Funding Deficiency Table are actually in compliance
                                   with minimum funding requirements; therefore, an
                                   examination would not be necessary.
                               •   The RICS, which is used to populate the Funding
                                   Deficiency Table, was shut down for 3 months to
                                   convert to a new operating system. This caused the EP
                                   Classification function to shift work priorities to meet
                                   the preconversion and postconversion inventory needs.
                               •   All RICS databases were moved to a new computer
                                   server, which necessitated the development of new
                                   procedures before EP function classifiers could use the
                                   new database.
                               As a result, in October 2003, EP function management
                               decided to realign its workload by closing returns from old
                               tax periods (any plans with a fiscal year ending date before
                               May 2001). The May 2001 date was selected because
                               timely filed returns would have at least 1 year remaining on
                               the Form 5500 return statute date. EP function management
                               believes at least 1 year remaining on the Form 5500 return
                               statute date is needed to perform an examination. However,
                               a closer analysis of the 2,285 returns closed in October 2003
                               (for Form 5500 returns posting in FYs 1999 through 2003),
                               showed the following:
                               •   For 238 returns with funding deficiencies totaling
                                   $91 million, there was still over 1 year remaining before
                                   the statute for the Form 5500 returns would expire (these
                                   were late-filed Form 5500 returns).


                                                                                      Page 6
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                               •    For 532 returns with funding deficiencies totaling
                                    $537 million, there was less than 1 year remaining
                                    before the statute for the Form 5500 returns would
                                    expire.
                               •    For 1,515 returns with funding deficiencies totaling
                                    $591 million, the Form 5500 return statute date had
                                    already expired.
                               We found that the 238 returns had been filed late, so the
                               statute expiration date for the Form 5500 return would be
                               calculated from the late-filing date, not from the due date of
                               the return. As a result, the EP function may have had more
                               time to assess applicable excise taxes.11 Using the tax
                               period as the primary criterion for closing older returns on
                               the Funding Deficiency Table may unnecessarily allow
                               late-filed returns to be closed without being worked.
                               Funding deficiencies in multiple years could be an indicator
                               that funding problems are persisting over extended periods
                               and may increase the risk the plan will become insolvent
                               and/or need to be terminated. We looked for additional
                               plans that reported funding deficiencies in more than 1 year.
                               Our analyses identified several plans on the Funding
                               Deficiency Table with Form 5500 returns posting to the IRS
                               Master File in more than 1 year during the period
                               October 1, 1998, through September 30, 2003. For
                               example, of the 3,798 FYs 2002 and 2003 returns on the
                               Funding Deficiency Table, 349 plans that reported funding
                               deficiencies in 1 of these 2 years also had another reported
                               funding deficiency during the period FYs 1999 through
                               2003. These 349 plans accounted for 755 returns having a
                               total reported funding deficiency of approximately
                               $1.5 billion.
                               Although EP function classifiers are advised to perform
                               research to identify plans with multiple funding
                               deficiencies, EP function management does not have an
                               indicator for multiple years on the Funding Deficiency
                               Table. Such an indicator would be helpful to EP function
                               management in prioritizing returns on the Table.

                               11
                                  The excise tax statute assessment is 3 years from the date the excise
                               tax return is filed, which could be different from the Form 5500 return
                               filing date.
                                                                                                 Page 7
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                               To make better use of resources, EP function management
                               should change its case assignment practices to prioritize
                               returns so EP function classifiers research the highest risk
                               cases. Prioritizing cases based on key factors such as the
                               amount of dollars or the number of participants at risk, in
                               addition to multiple years on the Funding Deficiency Table,
                               would better assist the EP function in identifying plan
                               sponsors that are at a higher risk of not being able to meet
                               future retirement benefits. While it would be beneficial for
                               all plan sponsors to be notified of the need to be in
                               compliance with minimum funding requirements, the EP
                               function should ensure the plans with the highest risk are
                               contacted.
                               Because the IRS has not devoted sufficient resources to
                               ensure all Form 5500 returns on the Funding Deficiency
                               Table are resolved and has not developed a system to
                               prioritize returns on the Funding Deficiency Table, plan
                               sponsors with large funding deficiencies or with funding
                               deficiencies in multiple periods may not have any actions
                               taken to resolve their funding deficiencies. If funding
                               deficiencies are not resolved and are allowed to continue,
                               pension plans may be left at risk of not having sufficient
                               assets to provide for future retirements.

                               Recommendation

                               1. The Director, EP, should establish a process for
                                  prioritizing returns on the Funding Deficiency Table
                                  based on risk factors that will ensure returns with the
                                  greatest risk of insufficient funding for future retirement
                                  benefits are worked first.
                               Management’s Response: The Manager, EP Classification,
                               will be assigned the responsibility to establish criteria for
                               prioritizing returns on the Funding Deficiency Table based
                               on risk factors (industry, economic conditions,
                               participant/assets, multiple years of funding deficiencies)
                               that will ensure returns with the greatest risk of insufficient
                               funding for future retirement benefits are worked first.




                                                                                        Page 8
  Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
           Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                                 We identified several weaknesses in how cases were
Enhanced Processes Are
                                 researched and resolved on the Funding Deficiency Table
Necessary to Ensure Funding
                                 and how case actions were documented on the Table.
Deficiencies Are Sufficiently
                                 Specifically, cases on the Table were not always worked in
Researched and Accurately and
                                 accordance with EP function procedures, and the Funding
Completely Documented
                                 Deficiency Table contained inaccurate and/or incomplete
                                 information, so neither we nor EP function management
                                 could determine whether appropriate actions had been taken
                                 to resolve the funding deficiency. In addition, the Funding
                                 Deficiency Table was not designed as an inventory
                                 management and control system and has limitations for
                                 monitoring case assignments.
                                 Returns with potential funding deficiencies were not
                                 sufficiently worked
                                 We analyzed the documentation on the Funding Deficiency
                                 Table for 1,650 Form 5500 returns that posted to the IRS
                                 Master File in FY 2002 and determined EP function
                                 classifiers had performed research to assess whether the
                                 plan sponsor had resolved the potential deficiencies for
                                 1,082 of these returns. In reviewing the limited
                                 documentation available on the Funding Deficiency Table
                                 for 225 of the research returns, we either determined the
                                 case actions were insufficient or could not determine if the
                                 funding deficiencies were appropriately resolved. These
                                 225 returns included:
                                 •   Thirty-five returns for which insufficient follow-up
                                     actions were taken on the compliance letters sent to plan
                                     sponsors. In these instances, it had been over 1 year
                                     since the compliance letters had been sent, and, for 31 of
                                     the 35 cases, there was no further action documented on
                                     the Funding Deficiency Table. EP function
                                     management was unaware that follow-up actions had not
                                     been taken. As a result, EP function management does
                                     not know if the funding deficiencies were adequately
                                     resolved or if excise taxes were required to be filed and
                                     paid.
                                 •   Fifty-one returns for which cases were closed on the
                                     Funding Deficiency Table involving specialized funding
                                     laws without a determination as to whether the plan
                                     sponsors had complied with the appropriate funding
                                     procedures. These returns involved taxpayers from
                                                                                        Page 9
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                                   Puerto Rico, who have funding rules which are unique
                                   and different from those for other plans. The EP
                                   function did not have procedures in place to instruct
                                   classifiers to forward these cases to a group with
                                   specialized expertise on international issues.
                               •   Nine returns referred by EP function classifiers to EP
                                   Examination function field groups; however, the returns
                                   were closed by the EP Examination function field
                                   groups without a validation as to whether the funding
                                   deficiency existed. If examination cases are closed
                                   without being worked, the EP function procedures
                                   require the EP Examination function field group to
                                   coordinate this action with the EP Classification
                                   function. The Manager, EP Classification, advised us
                                   that these closing actions were not coordinated between
                                   the EP Examination field group and EP Classification
                                   functions.
                               •   One hundred sixteen returns for which EP function
                                   classifiers determined an excise tax return was filed as a
                                   result of a funding deficiency; however, no compliance
                                   letter had been sent to the plan sponsor to determine
                                   whether the funding deficiency had been resolved.
                               •   Fourteen returns for which cases were closed without a
                                   determination as to whether the plan sponsor had
                                   resolved the funding deficiency involving bankrupt or
                                   “unable to locate” plan sponsors. EP function
                                   procedures do not address the actions that need to be
                                   taken to resolve these types of potential funding
                                   deficiencies and allow EP function classifiers to
                                   determine the necessary actions. This could result in
                                   inconsistencies in the amount of time and effort to
                                   resolve these returns.
                               EP function management recognized that Form 5500 returns
                               on the Funding Deficiency Table were not being adequately
                               resolved; they are in the process of developing new
                               guidelines for processing these returns. One new process
                               was started in June 2004 and requires classifiers to provide a
                               monthly tracking chart to the Manager, EP Classification,
                               which will assist the Manager in monitoring activities and
                               assessing the status of returns on the Funding Deficiency
                               Table. In addition, the Manager, EP Classification, had
                                                                                     Page 10
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                               previously clarified procedures in February 2004 by
                               instructing EP function classifiers to send a compliance
                               letter requesting verification that the funding deficiency was
                               paid when the EP function classifier determined that the
                               plan sponsor had filed an excise tax return. Prior to this,
                               some EP function classifiers were closing these types of
                               returns from the Table without attempting to verify whether
                               the funding deficiencies were paid. These procedures were
                               brought to the EP function classifiers’ attention during their
                               monthly meetings.
                               Also, EP function management advised us that an automated
                               letter generation enhancement on the RICS was piloted in
                               October 2003. This enhancement will streamline the
                               process of developing correspondence by allowing EP
                               function classifiers to draft letters by inserting paragraphs
                               previously prepared. In addition, an automated worksheet
                               enhancement was being tested on the Funding Deficiency
                               Table. The automated worksheet enhancement will allow
                               EP function classifiers to readily review pertinent Form
                               5500 information by systemically inserting RICS data into
                               the Funding Deficiency Table. EP function management
                               believes these actions will improve the efficiency and
                               consistency of case actions.
                               Further, the Manager, EP Classification, advised us that
                               limitations to information on the Funding Deficiency Table
                               prevented effective monitoring of classifiers’ activities. For
                               example, the Funding Deficiency Table does not indicate
                               which cases are being worked until the contact letter is sent
                               to the plan sponsor.
                               The Funding Deficiency Table contained inaccurate
                               and/or incomplete information
                               The Funding Deficiency Table serves as the inventory
                               management and control system for funding deficiency
                               cases in the EP Classification function, but there are
                               limitations for monitoring case assignments. Because of
                               these shortcomings, EP function management relies heavily
                               on EP function classifiers to accurately and completely
                               record the status of case assignments and the actions taken
                               to resolve the funding deficiencies.


                                                                                     Page 11
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                               We determined the Funding Deficiency Table does not
                               provide sufficient information for all types of closures.
                               Specifically, the Table does not have closing codes or other
                               identifiers for cases referred to the field for examination,
                               requiring special expertise (such as the cases from Puerto
                               Rico), or for which the classifier was unable to locate the
                               plan sponsor.
                               As a result, the only way to identify these types of cases
                               using the Funding Deficiency Table is to review the
                               comment section. Another option for identifying the cases
                               referred to the EP Examination function field groups is to
                               run a special computer application comparing RICS data to
                               information on the Funding Deficiency Table.
                               However, our analysis of case actions for the 1,047 returns
                               on the Funding Deficiency Table that were worked by
                               classifiers and posted to the Master File in FY 2002 found
                               numerous examples of inaccurate and/or incomplete
                               information.
                               •   We identified 85 returns that had incorrect closing codes
                                   recorded on the Funding Deficiency Table, based on a
                                   comparison of the closing code and the comment
                                   section. For example, some returns were closed with a
                                   taxpayer error closing code, but the comment indicated
                                   the plan sponsor had filed an excise tax return and had
                                   also made up the funding deficiency.
                               •   We identified 82 returns for which actions recorded in
                                   the comment section were either unclear compared to
                                   the letter results code that was entered by the EP
                                   function classifier or the comment section did not fully
                                   address all the actions that should have been taken to
                                   research the funding deficiency. For example, some
                                   returns were closed using the excise tax return closing
                                   code but were silent on whether the funding deficiency
                                   was paid.
                               Also, we identified 440 returns with no information
                               recorded in the comment section. Without this
                               documentation, EP function management cannot determine
                               if the cases were properly worked and the correct closing
                               codes used.


                                                                                     Page 12
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                               Although the Funding Deficiency Table has limitations as
                               stated above, it is the primary means to record case activity
                               for funding deficiency cases and management uses it to
                               review case activity. As a result, it is important for EP
                               function management to emphasize documentation
                               requirements to the EP classifiers.
                               In addition to providing management the ability to
                               adequately review case activity, another benefit from an
                               accurate and complete Funding Deficiency Table is the use
                               by the EP Education and Outreach function to assist plan
                               sponsors in correctly preparing funding deficiency
                               schedules on the Form 5500. We analyzed the Funding
                               Deficiency Table for the 745 returns that posted to the
                               Master File in FY 2002 and for which the case was closed
                               after a compliance letter was sent. For 487 (65 percent) of
                               these cases, the EP function classifier learned the funding
                               deficiency did not exist after receiving a response to the
                               compliance letter that the plan sponsor had made an error in
                               completing Form 5500. Additional education and outreach
                               may reduce the number of these errors, which would reduce
                               the number of returns on the Funding Deficiency Table.
                               Further, EP function classifiers did not adequately describe
                               the error in the Funding Deficiency Table for 399 of the
                               487 cases, which does not provide EP function management
                               with the information needed to determine whether education
                               and outreach is needed to prevent or reduce the errors.
                               Although EP function management stated the Funding
                               Deficiency Table was never meant to be an inventory
                               control system, it is considered the official record that
                               documents the EP function classifiers’ results of working
                               funding deficiency cases. For EP function management to
                               effectively manage this program, a management information
                               system is needed which will enable management to
                               prioritize and manage workload, evaluate trends, and
                               identify specific education and outreach issues to benefit
                               customers. If the Funding Deficiency Table is used for this
                               purpose, it should be enhanced to include closing codes for
                               all types of case closures and contain complete history
                               information about case actions and how the funding
                               deficiency was resolved. This would provide EP function
                               management with the necessary information to ensure

                                                                                     Page 13
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                               returns with reported funding deficiencies are appropriately
                               resolved.

                               Recommendations

                               The Director, EP Examination, should:
                               2. Reemphasize the following procedures for working a
                                  Form 5500 return with a reported funding deficiency:
                                    •   Before a funding deficiency case sent to an EP
                                        Examination function group is closed without an
                                        examination, the field examiners in the EP
                                        Examination function should coordinate this action
                                        with the EP Classification function.
                                    •   EP function classifiers should use the correct
                                        closing code to indicate how the funding deficiency
                                        is resolved.
                                    •   EP function classifiers should document in the
                                        “comment” section of the Funding Deficiency
                                        Table the reason for closing a return instead of
                                        sending it to the EP Examination function.
                               Management’s Response: The Director, EP Examination,
                               will issue a field directive to reemphasize the procedures for
                               working returns with reported funding deficiencies. The EP
                               Classification function is expanding the funding procedures
                               manual to better define the appropriate action code to be
                               used when updating the Funding Deficiency Table and to
                               require documentation, as appropriate, in the comment
                               section when a return is not selected.
                               3. Expand the EP Classification function funding
                                  procedures to include all the actions necessary to resolve
                                  potential funding deficiencies including bankruptcies,
                                  unable to locate taxpayers, and examinations requiring
                                  the special expertise of international tax law.
                               Management’s Response: The EP Classification function
                               will update the funding procedures manual to include action
                               codes, no action code or letter result code, for bankruptcies
                               and unable to locate taxpayers. Management will also
                               include the research steps classifiers will take for those

                                                                                     Page 14
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                               cases. All international cases assigned will be noted in the
                               comment section of the Funding Deficiency Table.
                               4. Improve the Funding Deficiency Table by creating
                                  closing codes to accommodate all closing actions
                                  including examination referrals and unable to locate plan
                                  sponsors.
                               Management’s Response: The EP Classification function
                               has revised the funding procedures manual to expand the
                               closing codes to better indicate the closing action recorded
                               on the Funding Deficiency Table.
                               5. Establish a periodic managerial review process for the
                                  Funding Deficiency Table to ensure funding deficiency
                                  cases were adequately resolved and accurately recorded.
                               Management’s Response: The EP Classification function is
                               currently implementing a monitoring process for the
                               deficiency program. A schedule will be developed to
                               perform workload reviews to ensure funding deficiency
                               cases are adequately resolved and accurately recorded.
                               6. Periodically review the funding deficiency cases that are
                                  closed because of a taxpayer error to determine whether
                                  any of the errors could be reduced or eliminated through
                                  additional education and outreach.
                               Management’s Response: The EP Classification function
                               will periodically review the comment section for all cases
                               closed due to taxpayer error and will work with a
                               representative from the EP Customer Education and
                               Outreach function once error trends are identified.




                                                                                     Page 15
    Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
             Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The objective of this audit was to determine whether the processes the Tax Exempt and
Government Entities Division uses ensure the funding deficiencies reported by defined benefit
and defined contribution pension plans were appropriately resolved. To accomplish our
objective, we:
I.       Determined whether the processes the Employee Plans (EP) function uses effectively
         ensured Annual Return/Report of Employee Benefit Plan (Form 5500) returns reporting
         potential minimum funding deficiencies were appropriately resolved.
         A.      Interviewed EP Examination function personnel and reviewed supporting
                 documentation to determine the process the EP function uses to ensure the Return
                 Inventory Classification System (RICS)1 under the Funding Deficiency Table
                 contains all of the defined benefit and contribution plans with a reported funding
                 deficiency.
         B.      Interviewed EP function management and obtained documentation of procedures
                 to determine the process the EP function uses to ensure all returns with reported
                 funding deficiencies are resolved.
         C.      Obtained a download of the 5,860 funding deficiencies that posted to the Internal
                 Revenue Service (IRS) Master File2 during Fiscal Years 1999 through 2003 and
                 categorized the records by 1) closed by compliance letter, 2) closed by
                 examination, 3) closed without an examination or compliance letter, or
                 4) open/unresolved to determine whether the EP function appropriately resolved
                 the funding deficiencies.
II.      Evaluated the results of compliance letter closures to determine whether process
         improvements can be identified to reduce the number of cases with taxpayer and/or IRS
         errors.
         A.      Determined whether the EP function has a process to evaluate the funding
                 deficiencies resulting from errors and to either correct the IRS process or educate
                 the plan sponsors to prevent the errors in the future.




1
  The RICS is the inventory system used by the EP function to control, select, and monitor the results of
examinations.
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 16
 Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
          Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
James V. Westcott, Audit Manager
Michael R. Van Nevel, Lead Auditor
Andrew J. Burns, Auditor




                                                                                      Page 17
 Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
          Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Director, Employee Plans Examinations, Tax Exempt and Government Entities Division
SE:T:EP:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 18
    Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
             Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                                                                                                  Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•     Reliability of Information – Potential; 167 Funding Deficiency Table records with inaccurate
      and/or incomplete information (see page 5).
Methodology Used to Measure the Reported Benefit:
The Employee Plans (EP) function established a Funding Deficiency Table to maintain an
inventory of all Annual Return/Report of Employee Benefit Plan (Form 5500) returns that report
a funding deficiency over a certain dollar amount. Classifiers in the EP function attempt to
resolve the funding deficiencies by performing research on the inventory of returns and by
attempting to contact plan sponsors to request an explanation and/or resolution of the funding
deficiency. The Funding Deficiency Table serves as the inventory management and control
system for funding deficiency cases in the EP Classification function.
Our analysis of case actions for 1,047 returns on the Funding Deficiency Table that posted to the
Master File1 in Fiscal Year 2002 and were worked by EP function classifiers found 167 returns
with inaccurate and/or incomplete information. These included 85 returns with incorrect closing
codes and 82 returns for which actions recorded in the comment section were unclear. An
accurate and complete Funding Deficiency Table will provide management the ability to
adequately review case activity. It will also enable the EP Education and Outreach function to
assist plan sponsors in correctly preparing funding deficiency schedules on the Form 5500.




1
  The Internal Revenue Service database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.



                                                                                                          Page 19
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500

                                                                       Appendix V


                  Management’s Response to the Draft Report




                                                                            Page 20
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500




                                                                            Page 21
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500




                                                                            Page 22
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500




                                                                            Page 23
Establishing Case Priorities and Enhancing the Processes Would Improve the Employee
         Plans Efforts to Resolve Reported Funding Deficiencies on Form 5500




                                                                            Page 24
